                                                 (the "subject"), who at the time relevant to this
case held a m                                                          (the "institution"). The
subiect submitted o m

                                                                -
D-tOOte-i
first program o
                                     .
                                     R
                                                              The proposal was received by the
                                      and was initially handled by the first program's Program


        The PD informed OIG that she had observed a panel review in which extraneous
consideration of the alleged emotional illness of the subject occurred, which in the PD's opinion
turned into ridicule of the subject. The PD said that one of the panelists asserted that because
of the subject's emotional illness, the subject must not have been the real author of the six
articles that the subject had recently published. According to the PD, the subject's proposal
began the review with "High Priority" written reviews, and ended with a low score and no
funding as a result of the panel's discussion of the subject's alleged emotional illness.

       If NSF's decision on the subject's proposal was negatively affected by consideration of
her physical or mental impairment, that decision could constitute discrimination under section
504 of the Rehabilitation Act. However, that section only provides for action to be taken by the
victim of such discrimination, and in this case the victim is unaware of what happened.
Nonetheless, we regarded this allegation very seriously because the integrity of the peer review
process is fundamental to the scientific enterprise.

       Examination of the proposal jacket revealed that the PD's statements about the merit
review of the proposal were mistaken. In fact, the panelists' reviews - written before the panel
meeting - consistently rated the scientific merit of the proposal below the level the first
program was ultimately able to fund: the first program was able to fund fewer than half of the
49 proposals rated as "High Priority" overall, and the subject's proposal was one of 122 rated
"Fund If Possible" overall (none of which was funded).

       We found that, in the performance of her previous NSF grant, the PI had obtained
extensions on the grant's termination date because she had been hospitalized. In the "Results
from Prior NSF Support" section of the instant proposal, the PI discussed the effect her illness
had on her work under the previous grant, and explained that a new treatment had rendered her
"virtually symptom-free" and fully able to work at her previous fully capacity.

       We interviewed, in person or over the telephone, all of the cognizant NSF program staff
and most of the members of the review panel. The panel discussion touched on the subject's
medical condition only briefly, and one panelist did mention, from his personal knowledge, what
the specific nature of the PI's medical condition was. The consensus of the panel members,
however, was that the discussion focused on the fact of the PI's recovery, which the PI had
          herself put at issue in her proposal, and the conclusion of the discussion was favorable with
          regard to that issue.

il               Subsequently, the PI did receive an NSF award for a proposal she had submitted to
          another program, and it was partly funded by the first program.

                 We concluded that there had been an improper contribution by one panel member to the
 n
          discussion of the subject proposal, but it had no effect on either the conclusion of the panel
          discussion or on the funding decision regarding the proposal. We talked with the NSF Division
          Director for the fmt program, and he told us he would talk to his program staff to emphasize
     I    to them the importance of keeping panel discussions focused on the scientific issues and the
          information in the official administrative record.

     11          Accordingly, this case is closed.




          counsel to the Inspector General


          concur:



                                               -     I
          James J. ~wolenik
          Assistant Inspector General for Oversight
